No. 20-1114

 

IN THE

Supreme Court of the United States

AMERICAN HOSPITAL ASSOCIATION, ET AL.,
Petitioners,

Vv.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE SEC-
RETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

AMICUS CURIAE BRIEF FOR THE NATIONAL
RIGHT TO WORK LEGAL DEFENSE FOUNDATION,
INC. IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,027 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
